Department of Health and Human Services
         OFFICE OF
   INSPECTOR   GENERAL




 SUMMARY OF OIG ACTIVITIES ON 

         MEDICARE 





           JUNE 1993   OEI-12-93-00010 

              EXECUTIVE                        SUMMARY
PURPOSE

This report consolidates information obtained during the course of Office of Inspector
General (OIG) reviews of the Medicare program and offers solutions to long standing
problems. This is not an assessmentof the Health Care Financing Administration’s
(HCFA) effectiveness in managing Medicare. We focus on problems which have not
been resolved. As policymakers consider ways to reform the health care system,
lessons drawn from the Medicare program can be instructive.

BACKGROUND

Medicare is a large and rapidly growing program. In 1992, Medicare had 36 million
elderly and disabled beneficiaries. It issued $129 billion in payments. The number of
beneficiaries has almost doubled since 1967. Current Medicare expenditures are
almost triple the entire nation’s health care spending in 1967.

Medicare is a complex program. Paying for medical care is complicated by the
multifaceted nature of medicine. Additionally, paying for health care is a three step
process. First, beneficiaries are treated by health care providers. Second, those
providers describe their services on claims they submit for payment (593 million claims
were processed in 1991). Finally, 81 private insurance companies (under contract to
the Government) determine how much should be paid and make the payments.

ISSUES

llae Medicare program must ensure that payments to providers are fair while reducing
&inirtraZive burdens. Three basic problems cause excessivepayments: inaccurate
claims, payment rates, and other insurers not paying their share. The challenge of
reducing administrative burden while ensuring that payments are accurate is a
substantial one, discussed more fully in the OIG report, “Electronic Data Interchange:
Issues and Challenges.”

b	    Inaccurate CZuirns: Medicare can lose money when claims submitted by
      providers do not accurately reflect the services they performed. The coding
      systems (which identify medical services) are gamed via unbundling (submitting
      separate bills for each component of a service). Medical services are
      sometimes exaggerated through upcoding. Actual charges are misrepresented
      through the waiver of coinsurance and deductibles. In other situations, the
      coding systems do not accurately reflect the service performed.

b	    Payment Rates: When Medicare started, it paid most health care providers
      their reasonable charges or costs. New rate setting methods for a variety of
      providers have been established. While these changes have been an


                                           i
       improvement, some payments are still too high. Many of the adjustments and
       exemptions to the hospital payment methodology are not justified by higher
       hospital costs. Additionally, the new physician fee schedule does not properly
       reflect the overhead costs of efficient providers of medical services.

b	     Other Insurers: Finally, other insurers bear primary responsibility to pay for the
       health care of some Medicare beneficiaries. Some of these beneficiaries are
       covered through employee health plans (if they or their spouse are still
       working), and automobile insurance (if they are accident victims). In many
       cases,the contractors that Medicare hires to handle its claims are the insurance
       companies that are liable as primary insurers. We found that billions of dollars
       were being wasted because the secondary payer statute was not being properly
       implemented.

5% Medicare program must ensure that the servicesprovided to benejkiati are
necessary,appropriate, and high quality. Inconsistent coverage decisions, lack of
controls, and limited quality oversight hamper the program’s ability to fulfill this
responsibility.

Ihe Medicare progiam must addressjZnuncia1con$?ictsof interest which may lead to
abuse. Financial conflicts of interest exacerbate concerns about the quality and cost of
services. Physicians can profit from referring patients to facilities or other providers in
which they have a financial interest. Providers can be offered kickbacks, or seek them,
in exchange for patient referrals. We reported on this issue in 1989 and 1991. We
have also opened over 850 investigations on kickback issues and have obtained close
to 570 convictions, settlements and other sanctions, and almost $16 million in
recoveries.

TIheMedicare program must examine i& payment systemsto ensure that they are not
vzdnerabk to j?aud and abuse. Medicare’s reliance on private insurance carriers carries
with it inherent conflicts of interest and opportunities for problems. Additional
reliance on computer systems and the electronic submission of claims may create new
vulnerabilities to fraud, waste, and abuse.



As discussed in this report, the problems and challenges facing the Medicare program
are substantial. During the course of our audits, inspections, and investigations in the
Medicare program, we have made numerous specific recommendations for change.
Many of these recommendations have been accepted by the Health Care Financing
Administration and some have not. Some require legislative changes; others can be
accomplished through administrative action.

All significant unimplemented OIG recommendations are included in one of two
documents. The Office of Inspector General Cost-Saver Handbook (the Red Book) is
a compendium of recent OIG recommendations to reduce unnecessary spending by


                                             ii
the Department through administrative or regulatory change, or by the Congress and
Administration through legislative change. The Office of Inspector General Program
and Management Improvement Handbook (Orange Book) contains recent
recommendations for strengthening program and management efficiency and
effectiveness. For our readers’ convenience, we have reproduced our listing of
recommendations to improve the Medicare program in the appendices to this report.

To reduce the level of fraud, waste, and abuse in Medicare, policymakers should:

      improve coding systems, 

      base fee schedules on the reasonable costs of efficient providers, 

      aggressively enforce the secondary payer statute, 

      identify and eliminate unnecessary and inappropriate coverage variations, 

      ensure the quality of medical services, 

      discourage financial conflicts of interest, 

      strengthen Medicare systems, and 

      develop payment alternatives. 





                                          ...
                                          111
                      TABLE                    OF CONTENTS
EXECUTIVE         SUMMARY

INTRODUCTION             ................................................. 1


ISSUES        ....................................................... 4


   Preventing and Identifying 

   Excessive Payments . . . . . . . . .            .......         . . . . .       . . . . .   . . . ..........         4


   Ensuring Quality of Care . . . . .              .......         . .   . . . .   . .   . .   . .    .........       12 


   Addressing Financial Conflicts 

   of Interest . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


   Improving Medicare Payment Systems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 


RECOMMENDATIONS                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 


Appendix A. Unimplemented OIG Recommendations: Cost Savers 


Appendix B. Unimplemented OIG Recommendations: Program Improvements 


Appendix C. Endnotes 

                         INTRODUCTION

PURPOSE

This report consolidates information obtained during the course of Office of Inspector
General (OIG) reviews of the Medicare program and offers solutions to long standing
problems. This is not an assessmentof the Health Care Financing Administration’s
(HCFA) effectiveness in managing Medicare. We focus on problems which have not
been resolved. As policymakers consider ways to reform the health care system,
lessons drawn from the Medicare program can be instructive.

BACKGROUND

While the private sector finances most health care, public spending is substantial as
well. In 1992, the Federal government accounted for 30 percent of health spending.
Payments for the 36 million Medicare beneficiaries (this program finances health care
for the elderly and disabled) were $129 billion. The Federal share of Medicaid
payments (this program finances health care for low-income persons) was $70 billion.
The HCFA runs both of these programs and absorbed 12 percent of the Federal
budget in Fiscal Year (FY) 1991.

The enormous size of the Medicare system could have barely been foreseen by its
creators. In 1967, Medicare covered 20 million people. National health spending was
$51 billion, a third of what Medicare alone now pays out for health care. The number
of providers doing business with Medicare has increased dramatically. In 1975, 2,254
home health agencies billed the program. In 1992, that number was 5,963. In 1975,
almost 3,000 independent laboratories did business with the program. In 1992, that
number was 7,509. In 1975, there were no end stage renal disease (ESRD) facilities
billing the program. In 1992, 2,211 ESRD facilities were billing Medicare.

Medicare contracts with private health insurance companies called fiscal intermediaries
and carriers to handle day-to-day claims processing and related operations. Fiscal
intermediaries process claims under Part A of the program, which includes hospitals,
nursing homes, home health agencies and other institutional providers. Intermediaries
processed 92 million claims in 1991, at a cost of $1.64 per claim. Carriers process
claims under Part B of the program, which includes physicians, laboratories, and other
noninstitutional providers. Carriers processed 501 million claims in 1991, at a cost of
$1.13 per claim. The HCFA has introduced major changes to the claims processing
system and plans more. A new electronic bridge links all Medicare systems and allows
for cross checks of eligibility and payment information. In order to encourage
electronic submission of claims by providers, which reduces administrative costs of
handling the claim, new payment rules allow HCFA to pay electronic claims more
quickly than paper files. The HCFA plans to reduce the number of carriers that
process claims for durable medical equipment, prosthetics and orthotics supplies, in
order to obtain more control over payment for these claims. Finally, and perhaps

                                           1
most significantly, HCFA has proposed the development of a standard Medicare
Transaction System, replacing the 14 different systems currently used by Medicare
contractors.

In addition to having their claims processed by different contractors, different types of
providers are paid based on different payment methodologies. Initially, all providers
were paid based on their “reasonable and customary” charges. This gave providers
very little incentive to be prudent and their charges frequently bore little relationship
to the cost of delivering services. Hospitals were reimbursed for their “reasonable
costs” and physicians received their “reasonable charges.” Beneficiaries were given
incentives to control costs in the form of coinsurance, deductibles, exclusions, and the
responsibility to pay for any charges above what Medicare determined to be
reasonable.

Since the inception of the program, several new approaches to pricing Medicare
payments for health care services have been developed. The prospective payment
system (PPS) for inpatient hospitals was introduced in 1984. It pays a predetermined
amount for treating beneficiaries with specific illnesses. Hospitals report the diagnosis
of the patient and procedures performed; based on this information, a diagnosis-
related group (DRG) is assigned. Medicare pays the hospital based on the DRG
assigned and makes adjustments which take the hospital’s location, patient mix, and
other factors into account. Because the amount per patient is fixed and known in
advance, hospitals ‘have an incentive to be efficient in serving patients. In the past,
efficiency could have cost the hospital money, since the more services it provided the
more it was paid.

The Medicare program has instituted fee schedules for a number of other services.
For example, a fee schedule was implemented for medical equipment and supplies in
1989 which prescribed a set range of acceptable payments that could be made for
various types of medical equipment and supplies. Carriers then retained some
flexibility to pay suppliers differently depending on past practice and geographic
considerations, but variation in payment amounts was reduced to a fixed range. This
fee schedule was based on average historical charges of medical equipment and supply
providers.

The most extensive fee schedule implemented to date is for physician services. This
new system will be phased in over time and began in 1992. The new Medicare Fee
Schedule is based on extensive efforts by researchers at Harvard University to identify
the amount of work involved in physician services. Before the implementation of the
Medicare Fee Schedule, we and other analysts frequently identified overpriced
services. Congress would respond by passing legislation to mandate reductions in
payment rates. The new resource-based physician fee schedule attempts to correct
past mistakes by basing fees on the resource costs of providing a service rather than
on past charges, which tended to overcompensate surgeons and encourage high-tech
procedures.



                                            2

The HCFA plans future reforms in payment methodology. Since 1986, HCFA has
been working on developing methods to reimburse outpatient surgery facilities in a
prospective manner. Currently, hospital outpatient departments are reimbursed
largely on costs. Developing an appropriate methodology for the reimbursement of
outpatient surgery in hospitals and free-standing facilities is important to the program
because more services than ever are being provided on an outpatient basis.

Role of the Qfice   of Inspector General
The OIG’s mandate is to protect the integrity of the United States Department of
Health and Human Service’s (DHHS) programs and the beneficiaries of those
programs by reducing fraud, waste, and abuse and by promoting the effectiveness and
efficiency of the department’s programs. About one-third of our resources are
devoted to oversight of the Medicare program.

The OIG accomplishes its mission through a series of audits, evaluations (inspections)
of program operations, and investigations of possible criminal or civil violations. The
OIG also reviews all regulatory and legislative proposals developed by the Department
to assesstheir effect on fraud, waste, and abuse.

During the past four years the OIG has issued more than 187 audit and inspection
reports on the Medicare program identifying more than $20 billion in potential
savings.’ We have recommended numerous improvements in program operations. In
FY 1991, we were’involved in 1,238 successful criminal and civil health care actions
against those who defrauded or abused the Medicare and Medicaid programs.

MEXHODOLOGY

The issues presented in this report are based on inspection, audit and investigative
work of the OIG.

Rather than present findings, as we normally do, this report describes the challenges
facing the Medicare program. We describe how program managers must determine
the appropriate payment for services and supplies, must ensure that care provided to
beneficiaries is necessary and appropriate, must face the increasing problem of
financial conflicts of interest for providers, and must improve systems.




                                            3

                                     ISSUES 


PREVENTING       AND IDENTIFYIN G EXCESSIVE             PAYMENTS

The Medicare program must ensure that payments to providers are fair while reducing
administrative burdens.

Three basic problems cause excessivepayments: inaccurate claims, inappropriate
payment rates, and other insurers not paying their share. Each of these are discussed
below. The challenge of reducing administrative burdens is discussedin a separate
OIG report, “Electronic Data Interchange: Issues and Challenges.”

b      HCFA must ensure that claimr submitted for servik~ are accurate.

The Medicare program loses money when providers submit inaccurate claims that
don’t reflect the services actually performed or the supplies actually delivered.
Providers can also,be disadvantaged by being paid too little when inaccurate claims
are submitted.

Hospitals’ billings must be scrutinized to ensure that proper diagnosis, which
determine the DRG payment, are reported to the program. In addition, the cost
reports of home health providers and nursing homes must be audited to ensure that
only proper amounts are included and reimbursed.

For noninstitutional providers, the task of ensuring appropriate billings is even more
difficult, although less total dollars are at stake. In 1991, $45 billion was paid for 501
million medical claims submitted by about 600,000 health care providers and suppliers.
Seven thousand procedure codes were used by physicians and 3,000 codes were used
by suppliers. Procedure codes identify the specific services or items provided and are
used by Medicare to determine payments. Medicare uses computerized prepayment
edits to identify potential problems before claims are paid. Postpayment reviews help
carriers recover improper payments by identifying possible fraud, waste, and abuse.
However, “gaming”’ by providers, as described below, still costs the program millions of
dollars each year.

Gaming can take the form of unbundling (submitting separate bills for each
component of a service, rather than one claim for the overall procedure or item) and
upcoding (billing for a more intensive service than the one actually delivered). Other
fraudulent activities, such as the routine waiver of coinsurance and deductibles,
contribute to overuse of services. Finally, loopholes in the coding system may allow or
even encourage inaccurate claims.

Unbzuding: Unbundling allows providers to inflate charges far above the appropriate
levels. Instead of billing for a complete service or item, the provider bills for all of the
subcomponent parts. As an example, an OIG audit of physician claims in

                                             4
Pennsylvania estimated that there were potentially $12.2 million in such questionable
payments annually in that State alone. Procedures were unbundled or in some cases
physicians billed for mutually exclusive procedures.2 Medicare is paying more than
twice as much as physicians for some clinical laboratory tests because it is paying for
test “profiles” or “batteries” on an al-a-carte basis3 Another OIG review found
physicians receiving $12 million in overpayments for biopsies and/or explorations which
were a part of another surgical procedure.4

HCFA has developed a limited number of edits for carriers to use in identifying and
dealing with unbundling. As an illustration, one of these edits is designed to prevent
payment for both a total abdominal hysterectomy and removal of the ovaries at the
same time because, by definition, the first procedure includes the second. Additional
edits may well be needed. Some private payers have as many as 3,000 edits in their
claims processing systems, as compared to about 300 in the Medicare payment system.


Upcoding: Under Medicare’s prospective payment system (PPS) for hospitals,
hospitals benefit financially from billing for more intensive and costly diseases. An
OIG study of 1985 medical records found 21 percent of hospital claims were
improperly coded, generally to the favor of hospitals and resulting in a $308 million
overpayment. 5 We recently replicated this study and found as many underpayments
to hospitals as a result of errors as overpayments.’ As a general matter, this means
that Medicare paid the right amount to hospitals as a group for services they provided
to Medicare beneficiaries. However, some individual hospitals may be paid too much
or too little.

A 1989 OIG report showed wide discrepancies in the way that physicians bill for
evaluation and management visits and recommended numerous coding reforms.7 This
variation in coding suggeststhat some physicians may have been upcoding their claims,
claiming a higher level of service was performed than was correct. In implementing
the new Medicare Fee Schedule, HCFA has drawn samples of claims to determine the
accuracy of claims submitted and to educate physicians on proper reporting. The new
fee schedule will not accomplish its goals if physicians inaccurately report their services
and claim that services were performed when they were not.

Routine Waiver of Coinsurance and Dedzdbks: For some types of services,
beneficiaries must pay at least 20 percent of Medicare’s allowed amount for the
services they receive. They must also pay an annual deductible before Medicare
usually pays anything. The purpose of the coinsurance and deductibles is to involve
beneficiaries in health care decisionmaking and provide an incentive for the prudent
purchasing of services and supplies.

The importance of this safeguard can be illustrated by a study in which the OIG
identified provider abuse in selling medically unnecessary seat lift chairs to Medicare
beneficiaries. Sixty percent of the recipients of seat lift chairs we surveyed said that
the suppliers told them they wouldn’t have to pay anything for the chairs. Sixty-nine


                                             5
percent said they never made payments for the coinsurance or deductibles8 Clearly,
providers are more able to convince vulnerable beneficiaries to purchase their services
and equipment, even if it is of marginal or no value, by telling them that they have
nothing to lose by placing an order. Many of our investigations have shown that the
routine waiver of coinsurance and deductibles is a key element in scams to bill for
unnecessary or undelivered services and items. To highlight this problem, we issued a
special fraud alert on routine waivers to over 800,000 health care providers.’ The
alert describes what types of waivers are illegal and asks providers to report violators.

Imprecise coding Systems: The Part B fee schedules tie payments to procedure and
supply codes. For physician services, HCFA relies on a coding system developed and
maintained by the American Medical Association for physician services. For durable
medical equipment and supplies HCFA and representatives of the insurance industry
have developed separate codes. These coding systems must differentiate between
services and supplies with significantly different resource costs. This is not always the
case. Some codes lump together vastly different services. Other codes do not
accurately reflect the service performed or the item delivered. For example:

 F	    The procedure codes for some ultrasound services included vastly different
       procedures.” l1 I2 Included under the same procedure codes were: (1)
       one hour long procedures with $300,000 machines that provided color images of
       body parts, and (2) the use of a $300 “pocket doppler” that took only 5 minutes
       and provided audio feedback only on the flow of bodily fluids.

 b	    A study of liver biopsy procedures found that there was no accurate procedure
       code for needle biopsies that involve surgical incisions.13 Physicians used a
       code that implied that they had performed a surgical biopsy.

 b	    Suppliers sometimes provide foam rubber mattresses to beneficiaries and
       submit claims for more expensive “air fluidized beds.” These devices “use warm
       air under pressure to set small ceramic beads in motion which stimulate the
       movement of fluid” and can be useful for patients with serious skin problems.
       The coding manual contains no description of “air fluidized beds.“14 Another
       Medicare manual provides a detailed description of the type of air flotation
       mattress that is covered by Medicare but the coding manual’s lack of detail
       makes it difficult to support criminal fraud convictions of suppliers.

We recently completed field work on a study to evaluate the successof the coding
system in preventing fraud, waste, and abuse. We reviewed previous audits, studies
and other analysis performed by the OIG and others, and interviewed representatives
of the physician societies and carriers to gain a better understanding of the systems’
strengths and weaknesses. We have concluded that legitimate confusion, as much as
provider abuse, can lead to inaccurate claims. Approximately 20 percent of physician
respondents believe at least one-quarter of the codes have inadequate definitions; 40
percent of coders and HCFA officials believe that to be true.15



                                            6

b        l%e HCFA must ensure that payment rates are fair.

As discussed earlier, the Medicare program started with very weak cost controls,
paying providers on the basis of their costs and charges. Such methodologies provided
little incentive for providers to deliver care efficiently. Although the program has
made much progress in this regard, problems remain in the reimbursement for
inpatient hospitals, outpatient facilities, physician services, and supplies.

Inpatient Hospitals: When Medicare implemented PPS, a number of adjustments and
exemptions were included in the law. We analyzed those adjustments and suggest
reforms.

    b	   The law gave teaching facilities an add-on payment amount called indirect
         medical education payments. We extensively analyzed the payment rates to,
         and the profit rates of, teaching facilities. We found that teaching hospitals
         were making excessiveprofits. Legislation in 1987 reduced the add-on to 7.6
         percent and $1.1 billion was saved in FYs 1989 through 1991.16 Additional
         analysis lead us to recommend that the indirect medical education payment be
         further reduced.17 The FY 1992 budget request recommended gradually
         reducing the indirect medical education add-on further to 3.2 percent. If
         enacted this would have saved more than $1 billion in FY 1992.

    b	   Medicare pays for most hospital capital costs on a pass-through basis. A 10
         year phase-in to prospective payment rates for these procedures has been
         enacted. Extensive audits show that past costs have been inflated by the
         inclusion of inappropriate items. We’ve estimated that excluding those
         inappropriate amounts could reduce payment rates by as much as $920 million
         annually.18

    b	   Medicare compensates hospitals for the bad debts caused by beneficiaries who
         fail to pay their coinsurance or deductibles. Hospitals have little incentive to
         collect bad debts because Medicare will cover the loss. Audits have found
         inadequate collection efforts. Medicare could save $400 million annually by
         eliminating this policy. The HCFA agrees with the OIG’s option to include a
         bad debt factor in DRG rates. This will require legislative action.”

    b	   Medicare could reduce its costs by selectively contracting for certain procedures
         (such as coronary artery bypass graft surgery.) An OIG review found that
         hospitals and surgical teams that perform a high volume of these procedures
         offered packages to health maintenance organizations that combined hospital
         and physician charges and were substantially less than Medicare’s payment. We
         concluded that there is a need for legislation that will allow the negotiation of
         fixed-price, package agreements with preferred providers so that high quality of
         care can be obtained at costs significantly less than the program is currently
         paying. The HCFA has selected four sites to serve as demonstration projects


                                              7
       to test our thesis. The results will be evaluated and serve as the basis for
       future legislation. We estimate that this approach could save $192 million
       annually.20

Ozdpatient FadEties: As discussed earlier, a growing proportion of medical services
are being performed in outpatient settings. Hospital outpatient services were not
included in the prospective payment system and they continue to be reimbursed (at
least partially) on a “reasonable cost” basis. Medicare pays more for services in
hospital outpatient departments than it does for the same services in ambulatory
surgical centers, which sometimes perform the same services. Several OIG reports
have shown differing reimbursement amounts to different types of facilities for
providing the same services.212223 Yet, we found no significant difference in the
type of patients these facilities treat or in the quality of care delivered.24
Differentiation in payment according to place of service may not encourage delivery of
services in the most cost-effective setting.

Physician Services: Although we applaud the work done so far to rationalize physician
payments on the basis of resource costs, we and others recognize significant problems
remain. The work of the Harvard team which developed the resource based, relative
value system did not include estimates of the practice cost, or overhead, required to
support each type of procedure. As a result, payments for practice expensesare still
tied to historical costs. In addition, overhead costs are spread evenly among all of the
procedures performed by a specialty. This is an important weakness because practice
expenses are almost half of the cost of providing physician services. Both HCFA and
the Physician Payment Review Commission are studying ways to identify and
reimburse practice costs.

A further challenge for HCFA is to assign relative values to services which were not
studied by the Harvard team, or to update the relative values that have been assigned.
We will be scrutinizing this process in the future to ensure that appropriate
methodologies have been established and are being followed to maintain the validity
of the fee schedule.

Another area which has been extremely difficult for HCFA to address is the
identification and assessmentof new technologies. We have pointed out that
Medicare carriers make decisions about technologies differently, and consequently
arrive at different decisions about what is covered or not covered. We have also
pointed out that no system exists for ensuring that payments for new technologies
decrease in response to decreasing costs for delivering an item or service.25 We plan
to conduct a follow-up review to assessthe effectiveness of recent changes made to
HCFA’s coverage and pricing process to determine if these vulnerabilities remain.

Durable Medical li$z.u>ment and Other Items: The coverage and pricing for durable
medical equipment, prosthetics, orthotics, and supplies has received a great deal of
attention from the OIG and HCFA over the past several years. This may seem odd,
since total allowed charges for these items are a modest portion of the total Medicare


                                            8
budget, only $3.3 billion in 1991. Yet we have documented flagrant and consistent
abuses in this area over time.

The legislation that was enacted in 1990 to mandate national floors and ceilings for
prices narrowed the variations in pricing among carriers. It also mandated specific
reduction in payments for some types of equipment and supplies that the OIG had
identified as overpriced. However, additional refinement of the fee schedule may well
be needed because the schedule was not based on the cost of manufacturing an item
but on historical charge data. Examples follow:

 b	   We found that Medicare was overpaying for intraocular lenses and
      recommended a reduction in payments to $200 per lens.2627 HCFA
      implemented our recommendation in some settings and $60 million was
      saved.28 Subsequent work has found many providers paying less than $200 for
      lenses and we’ve recommended that HCFA drop its reimbursement rate to
      $150 or lessF9 This recommendation could save $100 million annually.%
      We are now conducting another review of intraocular lens purchase costs.31

 b	   Supplying oxygen to Medicare beneficiaries accounts for almost half of
      Medicare’s durable medical equipment expenditures. In 1987, we compared
      Medicare reimbursement for home oxygen and oxygen equipment with amounts
      paid by non-Medicare payers. We found that all 122 Veterans Administration
      hospitals paid less for each type of oxygen equipment than Medicare.32 We
      re-evaluated payment rates in 1991, after implementation of the fee schedule,
      and found that Medicare was still paying 178 percent more than the Veterans
      Administration for oxygen services.33 The Department is seeking legislative
      authority to move to a competitive bidding system for the delivery of oxygen
      services (and other durable medical equipment) in large urban areas.

 b	   Despite congressionally-mandated reductions in the price of transcutaneous
      electrical nerve stimulation (TENS) devices, the 1993 fee schedule amount is
      $429. Some of these devices can be purchased wholesale for $35. We have
      previously testified on our concerns about the cost of these items and the
      amount paid by Medicare in testimony before the Congress.

Other areas also need attention. For example, a study of rapidly rising payments for
ambulance services found that the reasonable charge methodology for controlling
increases in supplier charges had been ineffective. 34 Although HCFA technically has
the authority to reduce payment amounts when they are inherently unreasonable, this
authority is rarely used.




                                          9

b      l%e HCFA must ensure that other insurempay their share of the cost of services
      for Medicare benejkiaries.

Medicare contractors are responsible for ensuring that a Medicare payment is made as
a secondary source to certain types of private insurance coverage. The Medicare
program initially paid for most health services provided to beneficiaries. Beginning in
1980, however, the Congress began enacting legislation that made Medicare the
secondary payer in certain cases. By 1987, legislative changes had been enacted that
made Medicare the secondary payer to Employer Group Health Plans for those
beneficiaries who are working aged, disabled, or have end stage renal disease.

We have issued numerous reports on Medicare secondary payer (MSP) issues. Our
reviews continue to show a need to recover past overpayments, avoid future
overpayments, and expand the definition of MSP to more beneficiaries.

Recover Past overpayment We have issued six reports that describes the need for
adequate resources and financial management systems to ensure that all past MSP
mistaken payments (estimated to be approximately $961.6 million) are
recovered 35363738394o As of September 1992, HCFA reported about
$961.6 million in past MSP overpayments that had not been collected. About $681.6
million of this total were backlogged claims.

To recover past MSP overpayments we recommend that HCFA take the following
actions: (1) ensure that contractors resources are sufficient and instruct contractors to
recover improper primary payments, (2) insure that contractors take sufficient action
to preclude the loss of backlogged MSP cases(i.e., claims where contractors are more
than one quarter behind in sending a demand letter) because the recovery period
lapsed, (3) implement financial management systems to ensure all overpayments
(receivables) are accurately recorded, and (4) pursue alternative strategies such as
contingent contracts, demonstration and incentive programs, or fund collection
activities from recovery proceeds.

During FY 1992, HCFA provided the contractors an additional $20 million in
administrative funding to reduce the MSP backlog, however, the backlog continues.
The HCFA has also developed a MSP overpayment tracking system. However, it is
not considered a financial management system. In addition, DHHS submitted a FY
1994 legislative proposal to establish a payment safeguards revolving fund to provide
smoother and more certain funding levels which could result in more consistent and
efficient contractor MSP operations. HCFA will consider the question of
demonstration projects in the department’s legislative development process.

Improve Future Colkction Efforts: Collection of accurate and timely information on
other primary payers is needed to reduce Medicare overpayments in the future which
result from unidentified MSP casesand help the recovery process for overpayments.
We have issued four reports that describes the need for collection of accurate and
timely information to reduce Medicare overpayments by $900 million per annum in


                                           10
future years.4142434445 Identification of MSP situations occurs through a 

variety of means: beneficiary questionnaires, provider identification of coverage when 

services are provided, and the statutorily authorized Data Match Project with the 

Social Security Administration and the Internal Revenue Service. 


The HCFA should: (1) revise the justification for a FY 1990 legislative proposal, 

which would require insurance companies, underwriters and third-party administrators 

to periodically submit Employer Group Health Plan (EGHP) coverage data directly to 

HCFA, and resubmit it for FY 1994, (2) require that employers report EGHP 

coverage on the Wage and Tax Statement (W-2), (3) revise all Medicare claims forms 

to require a positive or negative response pertaining to other health insurance 

coverage, (4) request that the Social Security Administration maintain beneficiary 

spousal information in it’s Master Beneficiary Record system for use by HCFA, (5) 

establish a national data bank system containing primary insurance information, and 

(6) assure compliance with all first claim development procedures and collect health 

insurance information for disabled beneficiaries during the required disability waiting 

period. 


The HCFA is considering these recommendations and supports the establishment of a 

national clearinghouse of health insurance information as an alternative to some of 

our recommendations. Implementation plans and policies have not been developed 

and corrective action has not been implemented. Legislative action is required. 


@ati Dejinition of MSP: Medicare should be the secondary payer for all State and 

local government employees hired before April 1, 1986. This proposal has been 

included in previous Presidential budgets. Although this proposal was not enacted, we 

continue to advocate this legislation. As an alternative HCFA could seek legislation 

making Medicare the secondary payor for retirees of exempt State and local agencies. 

These include additional Medicare program cost savings of about $2 billion per year 

that could be achieved, if certain provisions of the legislation were expanded. 


We have issued two reports that promote additional cost savings if the MSP provisions 

were extended to include beneficiaries with end-stage renal disease (ESRD) without 

limitation and those retirees of exempt State and local entities.46 47 While 

legislation extended the ESRD provision from 12 to 18 months, we continue to believe 

that legislative acti,on is appropriate. In the 102nd Congress, H.R. 11 (as passed by 

the Senate) continued a provision to extend the MSP ESRD provision from 18 to 24 

months. However, this provision was not enacted. 





                                           11 

ENSURING     QUALITY      OF CARE

l%e Medicare program must ensure that the servicesprovided to benejkiati    are
newssay, appropriate, and high quality.

For the sake of the program’s financial integrity and beneficiaries’ protection, the
Medicare program has a responsibility to ensure that care it pays for is necessary and
appropriate. Inconsistent coverage decisions, lack of controls, and limited oversight of
quality hamper the program’s ability to fulfill this responsibility.

Inconsistent Coverage: Medicare delegates most coverage decisions to local carriers,
which leads to inconsistencies in coverage. We have repeatedly pointed out that this
delegation causes services to be covered in one jurisdiction but not covered in another,
duplication of efforts by carriers to collect and analyze the information necessary to
make coverage decisions, and provider confusion. HCFA believes that this diversity is
consistent with congressional intent and that it is usually appropriate. We have issued
several reports on this issue:

 b	    Medicare carriers surveyed for a 1990 report48 found that carriers perceived
       numerous problems with Medicare’s coverage decisionmaking process. They
       sought additional guidance from HCFA. HCFA maintained that they were
       solving these problems through ongoing administrative reforms.

 b	    Another OIG study shows that carriers have been inconsistent in deciding when
       to withdraw coverage of obsolete technologies.49

 b	    A recent case study of one procedure (transcranial dopplers) found that
       carriers continue to make inconsistent coverage decisions, base their decisions
       on questionable criteria and sometimes fail to implement the decisions that they
       do make .5o We are concerned that HCFA’s efforts to improve the coverage
       decisionmaking process have not been successful. We are planning additional
       work on this issue.”

TJmece,ssayServices: It is difficult for any payer to determine whether services
rendered by a medical professional are necessary. Such decisions are made implicitly
by all payers in determining the extent of the coverage afforded to beneficiaries.
However, even within the coverage guidelines set by any payer, providers may engage
in abuse. While individual casesof ordering or providing medically unnecessary
services may be difficult to demonstrate, systems can either encourage or discourage
providers in this regard. It is one of the significant problems associated with fee for
service medicine, in which the more services a physician supplies the more he or she is
paid.

A key way for Medicare to avoid paying for unnecessary services is strict adherence to
coverage decisions: We have not always found that Medicare adheres to its own rules.
For example, a random sample of medical records (primarily cataract surgeries) found


                                           12
that many monitored (or local) anesthesia services did not meet Medicare’s coverage
guidelines and that other insurance carriers had more restrictive coverage policies for
this procedure. 52 A more recent study, in which we examined payments made for
total parenteral nutrition (TPN), found that half of the $148 million paid out in 1991
was for services that did not meet the coverage guidelines. This is especially troubling
since only two carriers process claims for TPN, the coverage guidelines are quite strict
and specific, and a certificate of medical necessity is required in order for a claim to
be paid. Further, TPN therapy is extremely invasive and should only be administered
in specific instances of demonstrated need. Our findings suggest that carrier
specialization and use of certificates of medical necessity or other documentation of
medical need, by themselves, will not assure proper payment.

When a service is covered, it is more difficult to assessif the service was medically
unnecessary in the particular case at hand. For example, claims for outpatient clinical
laboratory services account for about 25 percent of all Part B line items but less than
10 percent of allowed charges. Total payments for clinical laboratory tests have been
rising rapidly despite reductions in per service payments. Many inappropriate factors
(such as defensive medicine) encourage the ordering of lab tests. The sheer volume
and small dollar amount of these tests renders utilization review cost ineffective. In
this case, we believe that the current reimbursement system encourages overuse of
laboratory services. Beneficiaries have little incentive to curtail their utilization of
these tests because they do not pay coinsurance or deductible amounts on clinical
laboratory tests. We have recommended that HCFA study ways to prospectively pay
for (or roll-in) clinical laboratory services through payments for physician office
visits.53 We estimate that reductions in inappropriate utilization, administrative costs,
and the collection of coinsurance would result in savings of over $12 billion in 5
years.54 One large medical laboratory chain recently plead guilty to two felony
counts because they performed and billed for tests that physicians considered
unnecessary. The company will pay $110 million in fines and restitution.

Durable medical equipment has also been a concern to us in this regard. We have
documented many instances where medically unnecessary medical equipment or
supplies were provided to Medicare beneficiaries. In our work on seat lift chairs,
discussed earlier, we found that many seat lift chairs were not being used for medical
purposes, that 85 percent of the beneficiaries were initiating the request for the item,
and that most were learning of these items through aggressive mass marketing.55
Similar problems were identified with oxygen,56TENS devices,57and power-
operated vehicles.58 Subsequent legislation withdrew coverage of seat-lift chairs and
reduced payment rates for TENS. Legislation also required the use of certificates of
medical necessity, filled out by the physician rather than the supplier, in order to
better ensure the medical necessity of these items. We will be reviewing the success
of this initiative in ensuring that only medically necessary medical equipment and
supplies are provided to Medicare beneficiaries.




                                            13 

Qzuz&y Concerns: ,The Medicare program relies on Peer Review Organizations
(PROS), survey and certification, accreditation and licensing to ensure the quality of
care provided to Medicare beneficiaries. Over time, we have expressed concern about
the effectiveness of PRO review and the system “gaps” which leave many settings
unregulated. For example:

 b	   In one study, we reviewed a random sample of Medicare hospital discharges
      and found that 6.6 percent of the patients received poor quality care.59 This
      compared to the PROS’ finding that only 0.8 percent of casespresented quality
      of care concerns. We recommended strengthening the PRO program and
      issuing regulations to implement a 1985 law giving PROS the authority to deny
      Medicare reimbursement for patients receiving substandard medical care. This
      regulation has still not been published.

      PROS have reviewed millions of inpatient medical records to confirm the
      necessity, quality, and appropriateness of care rendered to Medicare
      beneficiaries. The law requires PROS to refer casesto the OIG for sanctions.
      This rarely occurs. Only 12 caseswere referred to the OIG in fiscal year
      1992!’

 b	   We have identified quality of care problems when physicians travel to small
      rural hospitals to perform surgery. These “itinerant” surgeons are typically not
      available for follow-up care. Our contract physicians found poor quality care
      26.6 percent of the time.61

 b	   Many surgeries are now being performed in physician offices. We reviewed a
      sample of these procedures and found that medical records did not document
      reasonable quality of care for 20 percent of the surgeries.62

 b	   Medicare has no quality standards for independent physiological laboratories
      that perform ultrasound, cardiac monitoring and other non-invasive tests. In
      many states these facilities are not regulated. We found that concerns about
      the quality of these tests is pervasive.63 We recommended that HCFA
      promote stronger quality assurance but HCFA declined, believing that we did
      not present convincing evidence of poor quality.

 b	   In recent years, we among many others have expressed concern about the
      quality of laboratory testing. The Clinical Laboratory Improvement
      Amendments of 1988 (CLIA) significantly expanded Federal oversight of
      laboratory testing. The responsibility for implementing CLIA falls to HCFA
      along with the Public Health Service. We plan a series of studies to assessthe
      impact of CLIA on laboratory testing and HCFA’s enforcement of the statute.




                                          14 

ADDRE!SSlNG      FINANCIAL     CONFLICI’S     OF INTEREST

lk Medicare program must addressjinancial conjZc~ of interest which may lead to 

abuse. 


Physician ownership of and compensation from entities to which they make referrals is 

a practice that has received increasing attention and concern. In 1989, in the first 

national study of its kind, we reported that patients of referring physicians who own or 

invest in independent clinical laboratories receive 45 percent more clinical laboratory 

services than all Medicare patients in general.64 Another OIG report identified 

suspect financial arrangements between hospitals and hospital-based physicians.65 

We found that some hospitals are requiring kickbacks from these hospital-based 

physicians because they depend on hospitals for their referral of patients. 

Inappropriate incentives can also be present in the financial arrangements between 

different physician specialties such as optometrists and ophthalmologists.66 


Some steps have been taken to curtail these financial conflicts of interest and more 

have been proposed. Legislation has banned Medicare payment for clinical laboratory 

services ordered by physicians with financial ties to the laboratory. Legislation has 

been proposed to extend this ban to other types of providers. 


Under the Medicare and Medicaid anti-kickback statute, section 1128B(b) of the 

Social Security Act, it is illegal to offer or pay a profit distribution to physicians to 

deliberately induce them to refer business payable under Medicare or any State health 

care program. Since 1987, we have received more than 1,300 allegations of violations 

of the anti-kickback statute, and have opened over 850 cases. Close to 570 

convictions, settlements, and exclusions have been obtained as a result of our 

investigations, as well as almost $16 million in recoveries. As an illustration, our 

office initiated civil proceedings against three limited partnership laboratories and its 

principals in The Inspector General v. The Hanlester Network, et. al. In this case, for 

the first time, it has been established that a joint venture scheme can violate the anti-

kickback statute. 


In 1991, the OIG promulgated final “safe harbor” regulations. These regulations 

define for health care providers specific non-abusive business arrangements that will 

not be subject to prosecution under the anti-kickback statute. These safe harbors may 

lead to a restructuring of many joint ventures. We are in the process of sampling a 

variety of entities to identify the effect of this regulation on their ownership and 

referral patterns.67 





                                            15 

IMPROVING      MEDICARE      PAYMENT       SYSTEMS

llze Medicare program must examine ia payment systemsto ensure that they are not
vdnemble to fraud and abuse.

Medicare’s payment systems, implemented by a network of contractors, lead to some
of the problems cited above. Other examples bring home this point. In one study, we
found that carriers were failing to properly verify the credentials or identity of
providers billing Medicare and that some ineligible providers were receiving Medicare
reimbursement.@ 69 We recommended that HCFA:

       specify a minimum framework for provider number assignment to be followed
       by all carriers;

       consider implementation of a system of user fees to defray the costs of provider
       number assignment and maintenance;

       expand the Physician Registry to include nonphysician practitioners;

       require the Physician Registry to provide feedback to carriers concerning all
       active practice records;

       ensure carrier implementation of HCFA provider number assignment
       directives;

       require carriers to update files regularly, deactivate all provider numbers
       without current billing history, and establish adequate controls to assure that
       providers not legally authorized to practice are identified and their provider
       numbers deactivated.

As a result of our reports, HCFA has developed an action plan to improve its
management of the provider number system. We will be scrutinizing this process to
ensure that actions taken address the problems identified in these reports.

A further concern to us is the network of carriers and intermediaries itself which
process claims on behalf of the Medicare program. Through our work on the
Medicare secondary payer issue, and oversight of claims processing environment, we
believe that this system carries with it inherent conflicts of interest. For example, a
recent report we issued on contractors’ for-profit subsidiaries documents the practice
of contractors requiring the use of their subsidiaries’ systems for the submission of
claims to their private side of business, thereby disadvantaging other competitors
marketing other systems for use in billing the Medicare program.70 In many MSP
situations, the proper payer is the contractors’ private side of business, thereby
reducing the incentive for the Medicare contractor to identify the proper primary
payer.



                                            16 

The performance of Medicare contractors is key to the successof the Medicare
program. Thus, HCFA’s oversight of its contractors is one of its highest priorities.
Yet, as discussed in this report, we have documented numerous instances in which
guidelines established by HCFA have not been adhered to. A report discussed earlier,
in which we found half of the money paid out for total parenteral nutrition to have
been improperly paid, is an example.71 Yet it is worth repeating that in this instance
only two carriers are responsible for processing the claims and certificates of medical
necessity are required to establish the medical need for the therapy. Here carrier
personnel flagrantly ignored the coverage guidelines and authorized payments when
the certificates of medical necessity were incomplete, contradictory, or clearly
established need outside of the coverage guidelines. Despite these and other
examples, the rating of Medicare contractors according to established performance
indicators are almost always extremely high. We plan future work to assessthe
performance reviews of Medicare contractors.

Most providers are now submitting claims electronically and new incentives now make
electronic submission of claims more attractive to providers. While we agree that the
electronic submission of claims will reduce administrative burden and speed payment
to providers, it may also create new opportunities for fraud and may make the
detection and prosecution of fraud more difficult. When erroneous payments are
made they can now be repeated with lightening speed. We will not have the original
documents to prove a case, but rather a copy of the electronically-generated form.
Admissability of this form in court, as well as manipulation of the form, may cause
legal difficulties. More information on this subject can be found in our report,
“Electronic Data Interchange: Issues and Challenges.”

Finally, providers may find ways to use the current fragmented system to their
advantage. When deciding where to submit their claims, some medical equipment
suppliers have shopped among the various Medicare carriers to find the highest
reimbursement rates or the most lax medical necessity standards. Medicare allows
suppliers to submit claims wherever they receive the order. By using call forwarding
and other techniques providers can locate their home office wherever they wish and
bill the carrier of their choice. A 1991 report found that this policy cost Medicare at
least $22 million in 1989.72 That report’s analysis was limited to a small portion of
durable medical equipment. HCFA agreed with our recommendations and will base
pricing and coverage decisions on the beneficiary’s residence.




                                           17 

                   RECOMMENDATIONS

As discussed in this report, the problems and challenges facing the Medicare program
are substantial. During the course of our audits, inspections, and investigations in the
Medicaid program, we have made numerous specific recommendations for change.
Many of these recommendations have been accepted by the Health Care Financing
Administration and some have not. Some require legislative changes; others can be
accomplished through administrative action.

All significant unimplemented OIG recommendations are included in one of two
documents. The Office of Inspector General Cost-Saver Handbook (the Red Book) is
a compendium of recent OIG recommendations to reduce unnecessary spending by
the Department through administrative or regulatory change, or by the Congress and
Administration through legislative change. The Office of Inspector General Program
and Management Improvement Handbook (Orange Book) contains recent
recommendations for strengthening program and management efficiency and
effectiveness. For our readers’ convenience, we have reproduced our listing of
recommendations to improve the Medicare program in the appendices to this report.

To reduce the level of Medicare fraud, waste, and abuse, the following initiatives
should be prominent on policymakers’ lists:

 b    Improve coding systems

       The coding systems for physician services, medical equipment and suppliers
       must accurately reflect the services or items provided and effectively combat
       gaming strategies such as unbundling.

 b    Base fee scheduleson the reasonable costsof ejjkient providers

       b	     Reduce or eliminate adjustments to hospital payments that are not
              warranted by higher costs.

       b      Implement a prospective payment system for outpatient facility services.

       b	     Base the practice cost portion of the physician fee schedule on the
              current overhead costs of efficient providers.

       b	     The durable medical equipment fee schedules should be based on the
              cost of efficiently providing items, not historical charges.

 b    Aggressivelyenforce MSP statue

       b      Provide more funding for secondary payer activities


                                           18 

    b      Improve data collection on spousal employment.

    b      Authorize and mandate additional data matching programs.

    b      Provide incentive programs for contractors to seek primary payers.

b   Identjj, and elbninate unnecessaryand inappropriate coveragevariations

    Coverage decisions should be more consistent. There is little reason to leave
    most decisions to local carriers. This is a duplication of effort. It can lead to
    inequities in coverage for beneficiaries as well as inappropriate payments.

b   Ensure the quality of medical services

    When existing Federal and State regulations do not ensure that Medicare
    beneficiaries are receiving high quality medical services, HCFA should take
    steps to assure quality.

b   Discourage jinancial conjlicts of interests

    When beneficiaries are being referred for additional medical care, the
    beneficiary needs to know that the reason for that service is their true medical
    need and that the physician has no financial incentive to order unnecessary
    services. In choosing where to refer patients, beneficiaries need to know that
    physician judgements will not be affected by financial conflicts of interest.

F   Strengthen Medicare systems

    The HCFA is considering implementation of a new claims processing
    environment, which we support. The current system may have fit the
    environment of the 196Os,but it needs to be revisited in light of technological
    changes which allow for electronic submission, adjudication, and payment, and
    medical advances which have reduced variations in medical practices.

b   Develop payment alternatives

    Medicare must aggressively pursue ways of financing care that create more
    incentives for the provision of only necessary and appropriate care. Among the
    methods chosen might be managed care, prospective payments, and payments
    for care conducted within established practice guidelines.




                                           19 

                                   APPENDIX                            A


                   UNIMPLJ3MENTED               OIG RECOMMENDATIONS:
                                             COST SAVERS
                                                                                                   ANNUAL
                                                                                                   SAVINGS
                                                                                                   MILLIONS
Medicare Reimbursement

       b	     Tighten Medicare Coverage of Noninvasive Tests of the Lower
              Limbs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $ 14

              Limit Medicare Part B Reimbursement for Hospital Beds . . . . . . . . . 10 


              Allow Payment for Nonemergency Advanced Life Support 

              Ambulance Services Only When Medically Necessary . . . . . . . . . . . . . 16 


       b	     Apply 190-Day Lifetime Limit for Medicare Inpatient
              Psychiatric Care and a 60-Day Annual Limit . . . . . . . . . . . . . . . . . . . 48

              Reduce Payments for Unnecessary and Poor Quality Upper GI 

              Endoscopies and Colonoscopies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55 


       b	     Reduce Payments for Unnecessary and Poor Quality Cataract
              Surgeries, and Associated Tests . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

              Reduce Monitored Anesthesia Care Payments . . . . . . . . . . . . . . . . . . 28 


              Recover or Adjust Medicare Credit Balances in Skilled Nursing 

              Facility Accounts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13* 


              Increase Fair Hearing Threshold . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


              Raise the Medicare Entitlement Age to 67 . . . . . . . . . . . . . . . . . Billions** 


Medicare Secondary Payer

       F      Recover Past MSP Overpayments . . . . . . . . . . . . . . . . . . . . . . . . . . 962*



*One-time recovery of savings.

** Savings would be first realized in the year 2003.
       b      Avoid Future MSP Overpayments . . . . . . . . . . . . . . . . . . . . . . . . . . . 900

       b      Expand MSP Provisions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . More than
                                                                                                 $1 billion
Hospitals

       b	     Consider Hospital Profitability in the Fourth Year of the
              Medicare Prospective Payment System . . . . . . . . . . . . . . . . . . . . . . . 610*

       b      Reduce Hospital Capital Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 800

       b      Reduce the Prospective Payment System Adjustment Factor for
              Indirect Medical Education Costs . . . . . . . . . . . . . . . . . . . . . . . More than
                                                                                              $1 billion

       b	     Deny Medicare Reimbursement for Patients Who Receive
              Substandard Medical Care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 110

       b      Modify Payment Policy for Medicare Bad Debts . . . . . . . . . . . . . . . . . 400

       b	     Limit Prospective Payment System Reimbursement for Hospital
              Admissions Not Requiring an Overnight Stay . . . . . . . . . . . . . . . . . . . 210

       b	     Reduce Medicare Payments for Hospital Outpatient
              Department Services . . . . . . . . . . . . . . . . i . . . . . . . . . . . . . . . . . . . . 90

       F      Review Admissions for Hospital Stays for Selected Diagnoses . . . . . . . 183

       b	     Recover Medicare Payments Made for Beneficiaries Eligible for
              Other Government Health Insurance . . . . . . . . . . . . . . . . . . . . . . . . . 40*

       b	     Recover Unallowable Hospital General and Administrative and
              Fringe Benefit Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2*

Physicians’ Reimbursement

       b	     Adjust Physician Fee Schedule Payments Based on Site of
              Service Differentials . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 177

       b	     Establish Mandatory Prepayment Edit Screens for Medicare
              and Medicaid . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

       F      Eliminate Fragmented Physician Claims . . . . . . . . . . . . . . . . . . . . . . . 13


*One-time recovery of savings.

                                                   A-2
         b   Roll Reimbursement for Lab Services Into Charge for Physician
             Office Visit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . More than
                                                                                                         $1 billion
End-Stage Renal Disease

         b       Further Reduce Medicare’s End-Stage Renal Disease Rates . . . . . . . . 22

         b       Disallow Bad Debts Reported by National Medical Care, Inc . . . . . . . . 3

         b	      Eliminate       Inappropriate Payments for Total Parenteral
                 Nutrition       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 71

         b       Reduce the Reimbursement Rate for Epogen . . . . . . . . . . . . . . . . . . 28

Ikmdzu~       and Use of Technology

         b       Change the Way Medicare Pays for Clinical Laboratory Tests . . . . . . . 426

         b	      Selectively Contract for Coronary Artery Bypass Graft
                 Surgery . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...192

         b	      Exclude Medicare Coverage of Conventional Eye Wear for
                 Beneficiaries Having an Intraocular Lens Implant . . . . . . . . . . . . . . . . 72

         b       Revise Reimbursement Rates for Low-Cost Ultrasound . . . . . . . . . . . . 4




                                                         A-3 

                               APPENDIX              B

                  UNIMPLEMENTETD  OIG RECOMMENDATIONS:
                          PROGRAM  IMPROVEMENTS

Medicare Contractor Operations

             Prevent Duplicate Payments

             Review the Current Preprocedure Review Processto Determine
             Whether It is Cost-Effective

             Substitute a Targeted, More Intensive Review for the
             Mandatory Review of Cataract Surgery

             Document Medicare Part B Subcontract Procurements

             Reevaluate Procedures over Payment Safeguard Activities and
             Take Steps to Assure that Savings Reported Are Accurate

             Conduct a Study To Determine the Feasibility of a Reporting
             System which Would Distinguish Between Savings

             Conduct Demonstration Programs to Evaluate Incentives To
             Enhance the Recovery Medicare Secondary Payer Payments

      b      Target Working Spouses and the Disabled To Increase the
             Cost-Effectiveness of the MSP Efforts

             Strengthen Home Health Care Payment Controls

Physician and Other Services

      b	     Require Equitable Distribution of Organs among Patients
             According to Established Medical Criteria

      b	     Require Carriers To Develop and Implement a Claims Review
             Process To Apply Existing Monitored Anesthesia Care
             Coverage Instructions

      b	     Issue Medicare Coverage Guidelines and Clarify Independent
             Physiological Laboratory Issues

       b     Initiate   Demonstration   Projects to Address Problems of

                                          A- 1
              Noncompliance with Prescription Medications among the
              Ambulatory Elderly

       b	     Develop National Guidelines for Allocating a Global Fee for
              Cataract Surgery and Postoperative Care

       b	     Add Upper GI Endoscopies to the Peer Review Organization
              List of Recommended Review Procedures

       b      Intensify Review of High Volume Ophthalmologists

       b	     Notify Hospitals and Hospital-based Physicians about Potential
              Legal Liability Regarding Other than Fair Market Value
              Agreements

Inpatient Hospital Services

       b	     Test the Effect of the Essential Access Community Hospital
              Program on Access to Care

       b      Determine Quality of Care of Itinerant Surgery

       b	     Recover Overpayments to Itinerant Surgeons for Postoperative
              Care

       b	     Develop Quality of Care Criteria for Coronary Artery Bypass
              Graft Surgery

Accounting System Controli

       b	     Obtain Guidance on Establishing a Proper Cost Allocation
              System

       b      Improve the Cost Allocation System

HCFA Administration

       b	     Foster Greater Consistency Among Carriers on New Health
              Care Technologies

       b      Strengthen the Monetary Sanctions in PRO Program

       b	     Exercise Greater Fiscal Accountability and Cost-Consciousness
              in the Kidney Acquisition System

       b      Prepare the Foundation for a DRG Incorporating Kidney


                                          B-2
Acquisition and Transplantation

Assisting States in Referring Possible Fraud Cases to Medicaid
Fraud Control Units

Establish Standards for Health Maintenance Organization
Marketing and Enrollment Practices

Require Ongoing Training of Nurse’s Aides and Orderlies,
Regarding Recognizing and Reporting Abuse

Establish a Statewide Network To Resolve and Follow Up on
Abuse in Nursing Homes

Require Carriers to Periodically Review and Update Provider
Records

Develop a Disaster Recovery Plan Identifying HCRIS as a
Critical Application to be Recovered

Resubmit a Legislative Proposal to Facilitate the Collection of
Medicare Secondary Payer Information

Require Employers to Report Group Health Plan Coverage on
Form W-2

Revise Instructions and Medicare Claim Forms to Collect More
Information from Beneficiaries

Maintain Accurate Beneficiary Spousal Information for Use in
MSP Activities

Report the Noncollection of Timely and Accurate Information
on Primary Insurers of Medicare Beneficiaries under MSP as a
Material Internal Control Weakness

Work with DOJ to Implement Controls To Combat Drug
Diversion




                             B-3 

                           APPENDIX                  C


                                    ENDNOTES


1. Office of Inspector General “Compendium of Office of Inspector General Reports
on the Health Care Financing Administration,” 1992.

2. Office of Inspector General, “Management Advisory Report: Manipulation of
Procedure Codes by Physicians to Maximize Medicare and Medicaid
Reimbursements,” A-03-91-00019, September 1991.

3. Office of Inspector General, “Changes are needed in the way Medicare Pays for
Clinical Laboratory Tests,” A-09-89-00031 (Revised).

4. Office of Inspector General, “Fragmented Physician Claims,” OEI-12-88-00901,
September 1992.

5. Office of Inspector General, “National DRG Validation Study: Special Report on
Coding Accuracy,” OAI-12-88-01010, February 1988.

6. Office of Inspector General, “National DRG Validation Study Update: Summary
Report,” OEI-12-89-00190, February 1992.
7. Office of Inspector General, “Problems with the Coding of Physicians Services:
Medicare Part B,” OAI-04-88-00700, January 1989.
8. Office of Inspector General “Medicare Coverage of Seat Lift Chairs,” OAI-02-88-
00100, February 1989.

9. Office of Inspector General, “Memorandum for the Honorable Richard G.
Darman, Director, Office of Management and Budget,” May 14, 1992, p. 5.
10. Office of Inspector General, “Pocket Dopplers: Management Advisory Report,”
OEI-03-91-00461, May 1991.
11. 	Office of Inspector General, “Low Cost Ultrasound,” OEI-03-88-01401, August
1991.

12. Office of Inspector General, “Zero Crossers,” OEI-03-91-00460, August 1991.

13. Office of Inspector General, “Liver Biopsies,” OEI-12-88-00900, September 1992.

14. Health Care Financing Administration, “1992 HCPCS Alpha-numeric codes,”
(E0194), 1992, p. 80.



                                        C-l
15. Office of Inspector General, “Coding of Physician Services,” OEI-03-91-00920 [An
ongoing study.]
16. Office of Inspector General, “Semiannual Report: October 1, 1986 - March 31,
1987,” p. 49.
17. Office of Inspector General, “OIG Recommendations Affecting the Solvency of
the Medicare Trust Funds,” A-09-91-00099, June 1991, p. 10; (see also ACN: 14-
52018, ACN: 09-62003, A-09-87-00100 & A-07-88-001 11).

18. Office of Inspector General, “OIG Recommendations Affecting the Solvency of
the Medicare Trust Funds,” A-09-91-00099, June 1991, p. 10 (see also ACN: 14-
52083).

19. Office of Inspector General, “OIG Recommendations Affecting the Solvency of
the Medicare Trust Funds,” A-09-91-00099, June 1991, pp. 11 - 12 (or A-14-90-00339).
20. Office of Inspector General, “OIG Recommendations Affecting the Solvency of
the Medicare Trust Funds,” A-09-91-00099, June 1991, p. 12; (or OAI-09-86-00076).

21. Office of Inspector General, “Medicare Cataract Implant Surgery,” OAI-85-1X-
046, March 1986.
22. Office of Inspector General, “Medicare Reimbursement for Hospital Outpatient
Department Services,” A-14-89-00221, March 1991.

23. Office of Inspector General, “Reimbursement for Outpatient Facility Services,”
OEI-09-88-01003, June 1991.
24. Office of Inspector General, “Outpatient Surgery Medical Necessity and Quality of
Care,” OEI-09-88-01000, February 1991.

25. Office of Inspector General, “Medicare Carrier Assessment of New Technologies,”
OEI-01-88-00010, April 1990.

26. Office of Inspector General, “Medicare Cataract Implant Surgery,” OAI-85-1X-
046, March 1986.
27. Office of Inspector General, “Medicare Certified Ambulatory Surgical Centers:
Cataract Surgery Costs and Related Issues,” OAI-09-88-00490, March 1988.

28. 	 Office of Inspector General, “Semiannual Report: October 1, 1989 - March 31,
1990,” p. A-2.

29. Office of Inspector General, “An Overview of Intraocular Lens Costs,” OEI-07-89-
01664, June 1990.




                                        c-2
30. Office of Inspector General, “Cost-Saver Handbook: The Red Book,” 1992, p. G-
2.
31. Office of Inspector General, “OEI Workplan: Fiscal Years 1993-1994,” 1992 p.
11.

32. Office of Inspector General, “Medicare Reimbursements for At-Home Oxygen
Care,” OEI-04-87-00017, December 1987.
33. Office of Inspector General “Oxygen Concentrator Reimbursement: Medicare
and the Department of Veterans Affairs, Management Advisory Report,” OEI-03-91-
00711, August 1991.
34. Office of Inspector General, “Medicare Part B Ambulance Services,” OAI-03-86-
00012, March 1987.

35. Office of Inspector General, “Review of Backlog of Medicare Secondary Claims,”
A-04-92-02057, December 1992 (Draft Report).
36. Office of Inspector General, “Review of the Accounts Receivable Balances for the
Hospital Insurance and Supplementary Medical Insurance Trust Funds as September
30, 1991,” A-01-91-00525, September 1992 (Draft Report).
37. Office of Inspector General, “Corrective Action Review of the Health Care
Financing Administration’s Medicare Payment Safeguards Program,” A-04-92-02037,
August 1992.

38. Office of Inspector General, “Review of Selected Part B Medicare Secondary
Payer Activities at Blue Shield of Florida,” A-04-91-02004, April 1992.

39. Office of Inspector General, “Review of AEtna Life Insurance Company’s
Compliance With Working Aged Provisions of the Medicare Secondary Payer
Program,” A-01-90,00509, February 1992.
40. Office of Inspector General, “Medicare Secondary Payer: Effectiveness of First
Claim Development,” OEI-07-89-01683, August 1991.

41. Office of Inspector General, “Medicare as a Secondary Payer - Review of the
Health Care Financing Administration’s Efforts to Implement the Data Match
Project,” A-09-91-00103, August 1992.
42. Office of Inspector General, “Medicare Secondary Payer: Effectiveness of First
Claim Development,” OEI-07-90-00763, November 1991.

43. Office of Inspector, “Extent of Unrecovered Medicare Secondary Payer Funds,”
OEI-07-90-00760, August 1991.




                                        c-3
44. Office of Inspector General, “More Complete Employer Group Health Plan
Information is needed to Administer the Secondary Payer Program,” A-09-91-00100,
March 1990.

45. Office of Inspector General, “Medicare Secondary Payer: Effectiveness of
Current Procedures,” OEI-07-90-00761, August 1991.
46. Office of Inspector General, “Retirees of Exempt Government Agencies Are A
Financial Drain on Medicare Part A Funds,” A-09-88-00072, February 1989.

47. Office of Inspector General, “Amending the Medicare Secondary Payer Provision
for ESRD Beneficiaries Could Save the Medicare Program $3 Billion Over the Next 5
Years,” A-10-86-62016, December 1987.

48. Office of Inspector General, “Medicare Carrier Assessment of New Technologies,”
OEI-88-00010, April 1990.

49. Office of Inspector General, “OIG Management Advisory Report: Medicare
Payments for Outmoded Procedures,” OAI-12-89-01170, November 1989.
50. 	 Office of Inspector General, “Transcranial Dopplers,” OEI-03-91-00950, October
1992 (Draft Report).
51. 	 Office of Inspector General, “Identification of New Technologies,” OEI-Ol-91-
00230, (A planned study.)
52. Office of Inspector General, “Medicare Coverage and Reimbursement for
Monitored Anesthesia Care,” OEI-02-89-00050, November 1990.
53. Office of Inspector General, “Ensuring Appropriate Use of Laboratory Service: A
Monograph,” OEI-05-89-89150, October 1990.

54. Office of Inspector General, “Impact of a Laboratory Roll In on Medicare
Expenditures,” OEI-05-89-89151, June 1991.

55. Office of Inspector General “Medicare Coverage of Seat Lift Chairs,” OAI-02-88-
00100, February 1989.

56. 	 Office of Inspector General, ” Office of Inspector General,” A-04-88-02058, March
1990.

57. Office of Inspector General “Transcutaneous Electrical Nerve Stimulation (TENS)
Devices,” OAI-02-88-00060, July 1989.

58. Office of Inspector General “Medicare Coverage of Power-Operated Vehicles,”
OAI-02-89-01110, August 1989.




                                         c-4
59. 	 Office of Inspector General, “National DRG Validation Study: Quality of Patient
Care in Hospitals,” OAI-09-88-00870, August 1989, p. 4.

60. Office of Inspector General, “The Sanction Authority of Peer Review
Organizations,” OEI-01-92-00250, August, 1992 (Draft Report).
61. Office of Inspector General, “Itinerant Surgery,” OAI-07-88-00850, April 1989, p.
11.

62. 	 Office of Inspector General, “Physician Office Surgery,” OEI-07-91-00680, January
1993 (Draft Report).
63. Office of Inspector General, “Quality Assurance in Independent Physiological
Laboratories,” OEI-03-88-01400, October 1990.

64. Office of Inspector General, “Financial Arrangements Between Physicians and
Health Care Businesses: Report to Congress,” OAI-12-88-01410, April 1989.
65. Office of Inspector General, “Financial Arrangements Between Hospitals and
Hospital-based Physicians,” OEI-09-89-00330, October 1991.

66. Office of Inspector General, “Ophthalmology/Optometry Relationships Involved in
Cataract Surgery,” OAI-07-88-00460, April 1989.

67. Office of Inspector General, “Compliance with the Safe Harbor Regulations,”
OEI-04-92-00220 (Ongoing study with a final report expected in the last half of 1993.)
68. Office of Inspector General, “Carrier Maintenance of Medicare and Provider
Numbers,” OEI-06-89-00970, May 1991.

69. Office of Inspector General, “Carrier Assignment of Medicare and Provider
Numbers,” OEI-06-89-00971, April 1992.
70. Office of Inspector General, “Electronic Media Claims and Contractors’ For-Profit
Subsidiaries: A Management Advisory Report,” OEI-12-91-01410, July 1992.
71. Office of Inspector General, “Inappropriate Payments for Total Parenteral
Nutrition (TPN),” OEI-12-92-00460, December 1992 (Draft Report).

72. 	 Office of Inspector General, “Carrier Shopping,” OEI-05-91-00043, November
1991.




                                         c-5
